           Smithsonian Institution
           Office of the Inspector General

                                              Internal Controls Over Cash Management and
           In Brief                           Banking Activities
                                              Report Number M-06-01, February 14, 2006


Why We Did This Study                 What We Found

Our September 2005 audit of the       We confirmed that control weaknesses existed in all three areas examined, which
Institution’s bank reconciliation     could expose the Institution to fraudulent transactions and overpayments, and
practices and three previous          affect the reliability of information in its financial system. Specifically:
consultant studies raised concerns
about the separation of duties in         •    Separation of duties. About 60 percent of the employee positions we
the Comptroller’s office, access to            reviewed lacked a proper separation of duties. These incompatible duties
financial records, and oversight of            provided employees the opportunity to misappropriate funds for personal
banking fees. We examined these                use and to conceal the theft by altering the accounting records. For
issues to determine whether                    example, employees could (1) transfer funds out of the Institution and
corrective actions had been                    control the related recording of those transactions, (2) modify vendor
implemented to strengthen                      listings and process payments for vendors, or (3) reconcile and make
controls over cash management                  correcting entries to bank accounts. Also, supervisors did not adequately
and banking activities. We                     review outgoing wire transfers, increasing the risk that fraud could occur
reviewed duties and access levels              undetected.
for 15 positions in the accounts
payable, cash management, and             •    Financial system access. Employees were granted broader access to the
bank reconciliations groups                    automated financial system of the Institution than was necessary to
within the Comptroller’s office.               perform their job duties, thereby increasing the risk of theft. This occurred
                                               because access levels in the automated financial system are complicated
What We Recommended                            and understood by few, access was granted to employees without evidence
                                               of supervisory approval, and managers did not review the appropriateness
We made 13 recommendations                     of employee access levels on a regular basis.
designed to ensure the proper
separation of duties; strengthen          •    Monitoring of banking contracts and fees. The Institution paid
the review, approval, and                      approximately $340,000 in annual bank fees without adequately
documentation of financial                     determining the validity or appropriateness of the charges. Management
system access levels; and ensure               did not maintain copies of bank agreements or fee schedules and also
periodic validation of current                 lacked an internal listing of unit transactions to verify the high volume of
bank charges as well as a monthly              miscellaneous service fees charged by its largest banking partners.
analysis of bank fees under future
banking arrangements.
Management’s initial
implementation plan fully
addressed our recommendations
regarding financial system access
and bank fees. We have been
working closely with the Chief
Financial Officer and Comptroller
to ensure appropriate corrective
actions are taken to address the      For additional information or a copy of the full report, contact the Office of the
separation of duties issues.          Inspector General at (202) 275-2244 or visit http://www.si.edu/oig.
In evaluating controls over cash management and banking activities, we reviewed duties
and system access levels for 15 positions4 in the accounts payable, cash management, and
bank reconciliations groups to determine how employees reviewed, processed, and
recorded banking and other financial transactions. We also met with Office of the Chief
Information Officer (OCIO) representatives and OC managers to determine the process
for granting access to areas of the financial system. We assessed how OC monitors fees
paid to banks to ensure they are in accordance with approved agreements between the
banks and the Institution. We did not attempt to detect fraudulent activity by testing
individual transactions where we noted internal control weaknesses. Appendix A further
describes our objectives, scope and methodology.

ANALYSES AND RECOMMENDATIONS

As required by Smithsonian Directive 115, units within the Institution must have internal
controls in place to ensure that resources are used in a manner consistent with the
Institution’s mission and that programs are protected from waste, fraud, and
mismanagement. Our review identified three internal control weaknesses that could
expose the Institution to fraudulent transactions and overpayments, and affect the
reliability of information in its financial system:

Separation of duties. Of the 15 accounts payable, cash management, and bank
reconciliation positions in OC that we reviewed, 9 individuals (60 percent) could either:
(a) control the transfer of funds out of the Institution and the related recording of those
transactions; (b) modify the approved vendor list and process payments for vendors
through the accounts payable system; or (c) reconcile bank accounts and make correcting
entries to those accounts. These incompatible duties provide employees the opportunity
to misappropriate funds for personal use and to conceal the theft by altering the
accounting records. In addition, in the cash management area, supervisors did not
adequately review outgoing wire transfers, increasing the risk that fraud could occur
undetected.

Financial system access. Of these same 15 employees, 9 were granted broader access to
the automated financial system of the Institution than was necessary to perform their job
duties. As a result, employees could process transactions that were outside their assigned
job responsibilities, thus increasing the risk of theft. This occurred, in large part, because
                                                  5
access levels in the PeopleSoft financial system are complicated; access was granted to
employees without evidence of supervisory approvals; and access levels were not regularly
reviewed for appropriateness by OC managers.




4
    The 15 positions included two contractors.
5
    Access levels are established in the PeopleSoft financial system by a hierarchy of settings. Roles establish a
    user’s ability to perform a specific function or task. For each role, there are pre-established permission lists
    and for each permission list there are established preferences. Roles, permission lists, and preferences can
    be modified by the OCIO.
                                                          2
Monitoring of banking contracts and fees. The Institution paid approximately $340,000
in annual bank fees without reviewing the approved bank agreements to establish the
validity or appropriateness of the charges. A 2004 consultant study raised concerns that
the Institution may have paid excessive and unusual fees for lockbox and other depository
services, which may explain why the Smithsonian was charged higher rates than the
national averages for some of the bank services. The Comptroller acknowledges that
oversight of bank service fees has been a longstanding issue, which he has been working to
resolve since he was hired by the Institution in July 2004. By September 2005, OC had
obtained copies of the bank agreements for most of the smaller banks. However, it was
unable to obtain previous fee schedules or a copy of its agreement with its largest banking
partner, the Bank of America, which accounted for over 80 percent of the annual banking
service fees. OC also lacked an internal listing of transactions to verify the accuracy of fees
charged by the Bank of America. It was not until the end of this review in
December 2005, that OC obtained a fee schedule for Bank of America to use in future
analyses of bank charges.

We provided management with an informal draft of this report in the latter part of
November 2005 and entered into extensive discussions with the Comptroller on the
report findings and compensating controls to mitigate the impacts of the control
weaknesses we identified. Our findings did not change as a result of these discussions, but
we made minor technical changes to the informal draft and refined several
recommendations before issuing the formal draft on January 13, 2006.

On January 27, 2006, management provided us with its formal response to our draft
report, which is contained in its entirety in Appendix B. The response indicated
concurrence with 10 recommendations, partial concurrence with the remaining 3, and
disagreement with several of our conclusions and our characterization of OC staffing
levels and banking fees. We carefully reviewed management’s concerns with the report
and continue to believe our conclusions and characterization of the facts are accurate.
Management proposed actions that should strengthen internal controls over system
access levels and oversight of bank fees. However, corrective actions proposed by
management to ensure the proper separation of duties are not fully responsive to our
recommendations in this area. A detailed discussion of the internal control weaknesses
and management’s response to our analysis and recommendations is included in the
following sections.

Critical Duties are not Adequately Separated within the Office of the Comptroller

The objective of separating duties is to make certain that employees do not have control
over multiple phases of a transaction. The Office of Management and Budget’s Circular
A-123, Management’s Responsibility for Internal Control, states that key duties and
responsibilities for authorizing, processing, recording, and reviewing official agency
transactions should be separated among individuals. When there is a good separation of
duties, fraud cannot occur undetected unless there is collusion between two or more
employees. Therefore, managers should ensure that individuals are not assigned
incompatible duties that give them control over multiple phases of a transaction.
Managers, themselves, also should not have the capability to authorize, process, and
                                              3
review the same transactions.

Our evaluation disclosed that 9 or 60 percent of the 15 employees sampled performed
duties that allowed them to control multiple phases of a transaction. As discussed below,
these employees were divided among the cash management, accounts payable, and bank
reconciliations areas of OC under the Financial Analysis and Reporting Division and
Financial Information Processing Division.

   •   In the cash management group, two employees, who annually execute tens of
       millions of dollars in wire transfers, are responsible for both executing the
       transfers and recording them in the accounting system. This arrangement
       provides the opportunity to execute wire transfers to fictitious payees and then
       conceal the identity of the true payee(s). For example, employees can send a wire
       to their own account and then improperly record it as a payment to a vendor or
       other bank account. The person reconciling the bank account would likely not
       detect this fraud because the amount recorded in the ledger would correspond to
       the amount paid by the bank. This is of particular concern because employees
       can wire (over the phone or by Internet) millions of dollars without verification or
       approval from the supervisor prior to the bank’s execution of the transaction.
       Also, few limits have been established for the dollar amount and number of wires
       that can be initiated each day. The Cash Management Officer told us that he
       began to approve some Internet wires in November 2005. While this is a good
       first step, we believe that wires transacted over the phone should also be approved
       before funds are transferred. Further, wires in excess of $1 million should be
       approved by progressively higher levels of authority, such as the Manager of the
       Financial Information Processing Division and the Comptroller. These approval
       levels should be communicated to the banks as a requisite for accepting the
       transfers, and OC should conduct periodic reviews of the support and approvals
       for wire transfers and approval limits.

   •   The accounts payable manager and two other employees in accounts payable can
       authorize the processing of payments approved by the units, review accounts
       payable transactions, and create and adjust vendor files in the financial system.
       The accounts payable manager told us that he had both recorded and approved
       entries in the financial system either when employees were absent or to meet
       workload demands during peak periods. Because of these privileges, the accounts
       payable manager could direct payments to a fictitious vendor and conceal the
       transaction by altering the accounting records. The two other accounts payable
       employees were assigned access levels that became inappropriate after their duties
       changed. One of these individuals did not have his accounts payable access
       removed when he was reassigned vendor maintenance responsibilities. The other
       individual was a contract employee who was rotated among various duties
       without modifying her access levels. Because system access levels of these
       employees were not reviewed and modified after their duties changed, these
       individuals could both access vendor maintenance files and schedule vendor
       payments.


                                            4
      •    Four employees in the bank reconciliations group are responsible for reconciling
           bank accounts and correcting accounting records. In our recent audit of bank
           reconciliations, we found one of these employees had both performed the
           reconciliation and cleared reconciling items for the CIGNA account. These
           incompatible responsibilities would allow this employee to force bank account
           reconciliations into balance with the accounting records through improper entries
           into the accounting system. Subsequently, the Institution dropped CIGNA as its
           medical provider.

The lack of proper controls was previously reported in a 2004 PricewaterhouseCoopers
          6
LLP study. The study identified a lack of separation of duties within OC, noting instances
where the same individual was preparing and posting journal entries, and the absence of
supervisory review of the entries. The consultant concluded that the focus of the office
was on processing transactions rather than on controlling those processes to ensure that
information was properly recorded and reviewed. The study advised OC that it should
implement a policy where all journal entries are reviewed and signed by a supervisor. We
agreed that all journal entries should be reviewed and approved. In discussing this issue
with the Comptroller, he indicated that available resources were insufficient to review
every journal entry. Recognizing these constraints, at a minimum, the Comptroller
should ensure that non-routine journal entries as well as those in excess of $100,000 are
reviewed and approved.

The consultant also suggested as a best practice that the Institution’s Office of the
Treasurer assume responsibility for wire transfers and bank callback verification
procedures, and that limits be set on the amount of money that can be transferred
without additional review. Subsequently, the Institution elected not to shift these
responsibilities to the Office of the Treasurer because it believed it had adequate
mitigating controls in place and that the related accounting function would be better
managed in OC. Because, as discussed above, adequate controls over wire transfers were
not in place, we are recommending a series of actions that should strengthen oversight of
wire transfers should the Institution keep this function within OC.

In addition to the consultant’s observations, we found the inadequate separation of duties
within OC has, in large part, resulted from multiyear budget reductions. According to the
Comptroller, at the start of FY 2002 OC had about 90 employees. Due to staff reductions
and transfers to other units, staffing levels had declined by the end of fiscal year 2005 to
about 47 employees. To compensate for staffing shortages supervisors have had to review,
record, and process transactions to meet workload demands.

The staffing shortages also have caused OC to rely heavily on contractors, which has
weakened the control environment. Further, the high turnover of contract staff created
vacancies in critical positions, requiring permanent employees to perform multiple phases
of transactions as well as expend scarce resources to train temporary staff. For example,
in an attempt to balance the workload, three employees assigned bank reconciliation
duties were given access to the accounts payable module to process intragovernmental

6
    Smithsonian Institution Internal Controls Review – Phase II, PricewaterhouseCoopers LLP, December 2004.
                                                      5
payments and collections. This access allowed them to process all types of accounts
payable transactions outside of the accounts payable supervisory review process.

OC’s heavy reliance on contract staff was highlighted as an area for improvement in Booz
Allen Hamilton’s Focused Workforce Analysis report7, which noted that the Institution
would benefit from replacing some of its contractors with permanent staff. The
consultant reported that the current financial management workload exceeded workforce
resources, and that the Institution needed to define the number of staff required to
adequately perform financial roles within the Institution.

The Comptroller acknowledges that his office’s reliance on contractors had resulted in
many data entry errors, and he is taking steps to mitigate this situation. Senior managers,
through the Workforce Hiring Action Plan process, have strengthened the Office of the
Comptroller’s staffing by converting four positions from contract to permanent staff,
adding three new positions, and upgrading another position. In September 2005, the
Comptroller hired a Cash Management Officer who has started approving some of the
wire transfers from the Institution’s bank accounts. However, this practice has not been
formalized in OC written procedures, and not all wire transfers are approved by the Cash
Management Officer. Further, despite the additional positions, in our view, the staffing
levels in OC are still inadequate to manage the workload.

RECOMMENDATIONS

Given the increased emphasis on internal controls by the Office of Management and
Budget, and the potential for significant losses through wire transfers, we recommend the
Chief Financial Officer (CFO):

       1. Review functions currently performed within OC and take steps to ensure that
          employees do not have control over multiple phases of a transaction, consistent
          with SD 115.

       2. Require the Cash Management Officer to approve all outgoing wire transfers
          before funds are transmitted. In addition, require that wire transfers in excess of
          $1 million be approved by the Manager of the Financial Information Processing
          Division and those over $10 million be approved by the Comptroller, or in their
          absences by designated alternates.

       3. Instruct the banks not to accept wire transfers from the Institution’s bank
          accounts without authorization from the Cash Management Officer, the Manager
          of Financial Information Processing Division or the Comptroller, or in their
          absences by designated alternates.


       4. Require a monthly review of wire transfers to ensure they are properly supported
          and approved.

7
    Focused Workforce Analysis, Booz Allen Hamilton, September 2005.
                                                     6
       5. Ensure that non-routine journal entries as well as those over $100,000 are
          reviewed and approved by a supervisor.

System Access Levels were Granted in Excess of Job Responsibilities

In April 2005, PricewaterhouseCoopers issued a report8 summarizing the results of its
review of security controls associated with the Institution’s financial system (PeopleSoft).
After reviewing approximately 1,200 Institution-wide accounts, PricewaterhouseCoopers
found that individuals in OC and OCIO had been granted inappropriate access to
different sections of the production environment, such as vendor management or
accounts payable, based on their respective job positions or responsibilities. This
occurred due to the complexity of PeopleSoft roles and permission lists.

In response to the report, the Comptroller, in coordination with OCIO, removed “system
administrator” access for a small subset of employees, and a number of queries were
developed to facilitate periodic review of user access. Nonetheless, our review disclosed
that 9, or 60 percent, of the 15 staff in OC sampled still had access to areas of the financial
reporting system that were incompatible with their primary job responsibilities. For
example, three employees in the accounts payable group had access to both vendor
maintenance and vouchers payable sections of the financial system, which could allow
fictitious payments to be processed and concealed. In addition, four employees in the
bank reconciliations group who were responsible for reconciling bank statements had
access to the general ledger, which could allow them to improperly modify the accounting
records.

We also found that the OC manager for accounting systems integration was granting
system access to OC staff without evaluating whether access levels were compatible with
employee job duties. The manager told us he was not trained on the configuration of
security access levels within the PeopleSoft financial system and has not been provided
information on job duties that would allow him to determine where responsibilities are
incompatible with system access.

The security access form used to assign system permissions also does not clearly define
access permissions being requested. For this reason, the manager relies on employees’
direct supervisors to perform that review, and only signs the security access forms because
his predecessor signed them. However, we found no evidence that supervisors reviewed
and approved systems access requests.

The manager also did not keep copies of the approved system access forms sent to OCIO,
or periodically review access profiles. Smithsonian Directive 301 requires, at a minimum,
that unit managers review user access profiles at least annually or when employees change
duties to ensure appropriate roles and responsibilities are assigned to each user in the
financial system. Despite this requirement and several requests from OCIO, OC had not
provided OCIO with a list of its employees who should have their system access levels

8
    Security Review and Penetration Testing of Financial Systems, PricewaterhouseCoopers LLP, April 2005.
                                                       7
modified.
In addition, the manager told us that he does not approve all user systems access requests.
User access requests for the purchasing and budget areas of the financial system are
approved by the Office of Contracting and the Office of Planning, Management and
Budget. These units, with the assistance of an OCIO employee, were evaluating whether
system access requests for purchasing and budgeting functions were creating separation-
of-duty conflicts. We determined this evaluation process was not always effective in
identifying potential conflicts. For example, employees provided access to the budgeting
module of PeopleSoft should not have access to the purchasing module because it could
enable them to make unbudgeted purchases and then mask them by changing the budget
records.

RECOMMENDATIONS

To ensure the Institution has implemented access controls for its financial system that
more properly reflect user responsibilities, we recommend the CFO:

   6. Require OC supervisors to review and sign system access forms before they are
      sent to OC’s manager for systems integration to ensure that OC employees are
      granted only the access needed to perform their jobs.

   7. Require the systems integration manager retain approved system access requests;
      and as required by Smithsonian Directive 301, annually review the
      appropriateness of system access levels granted OC employees and work with
      OCIO to modify access levels, where appropriate. Because OC had not provided
      OCIO a list of needed system access modifications for its employees, OC should
      do so no later than 30 days from the date of this report.

   8. Assign responsibility for reviewing separation of duties related to PeopleSoft
      system access levels between the various CFO departments to ensure that no one
      individual can control multiple phases of a transaction.

   9. Ensure that the financial systems integration manager is provided adequate
      information, training, and support from OC and OCIO on PeopleSoft financial
      system access levels and employee job duties to allow him to appropriately
      evaluate system access requests.

We recommend the Chief Information Officer:

   10. Work with OC to more clearly define system access levels, roles, and permissions
       for OC staff and revise access forms to better describe the respective financial
       system access levels.




                                             8
Banking Fees were Paid without Ensuring their Validity or Reasonableness

An important component of cash management is proper oversight of banking fees. We
found that the OC had been paying approximately $340,000 annually for numerous
banking fees without adequately determining the validity or reasonableness of the fees.
OC could not conduct fee reviews because it did not maintain records of the approved
agreements with the banks. The bank agreements also were not retained by the Office of
Contracting or the Treasurer.

The lack of documentation to monitor bank fees is troubling in light of fee irregularities
identified by an October 2004 study by Mitchell & Titus, LLP.9 The consultants reported
they found disturbing the number of fees assessed for what appeared to be the same
transactions. For example, the Smithsonian was billed multiple fees by both Riggs Bank
(now PNC) and Bank of America for receiving, depositing and recording checks received
in lockboxes. Mitchell and Titus also reported that both banks, combined, charged
63 types of miscellaneous service fees that were outside of industry norms. Additionally,
it identified unusual billings for excessively high volumes of inquiries for information.
For example, the Smithsonian was charged for inquiry fees based on an activity level of
about 17,000 inquiries monthly. The consultants reported that “the Smithsonian was also
billed unexpected charges for walk-in deposit fees on lockboxes and other questionable
services, such as negotiability reviews and deposit preparation.”

In looking at the high volume of miscellaneous fees that the Bank of America charged the
Institution, we noted that the units were directly ordering services from the banks without
approval from OC. These services included inquiries, photocopying, and other
miscellaneous services. Because these services were charged on a per-transaction basis,
unit actions contributed to a higher level of monthly service charges. We also found that
OC had no independent source of information, such as an internal transaction-level
listing, to verify or analyze the number of unit transactions being charged or to identify
which units were responsible for the transactions. Absent detailed activity-level data, the
Comptroller could not determine which units were ordering banking services and thus
missed an opportunity to reduce operating costs. To address this, the Comptroller told us
he plans to direct the banks to either not accept or to limit the miscellaneous services they
provide to the units.

In September 2004, OC requested copies of the current agreements from the banks. OC
subsequently acquired many of the banking agreements for the smaller banks and most
recently the fee schedule from the Bank of America, the Institution’s largest banking
partner. However, neither the Bank of America nor the Comptroller could ultimately
produce a copy of any contract or previous fee schedule, which is needed to determine
whether previous payments to Bank of America were appropriate. However, with the
current fee schedule the Comptroller should be able to review the validity and
reasonableness of future charges.




9
    Assessment of Banking Relationships and Cash Management Practices, Mitchell & Titus, LLP, October 2004.
                                                      9
RECOMMENDATIONS

We recommend the CFO:

   11. At least quarterly, verify that charges for banking services are valid and reasonable
       in accordance with the Institution’s current agreements with the banks. Ensure a
       provision is incorporated into future banking agreements to allow for a monthly
       analysis of bank fees.

   12. Direct the Institution’s current banking partners to either reject or limit
       miscellaneous services provided to the units until new banking arrangements are
       established.

   13. Formalize the controls recommended to OC in this report into a written policy to
       ensure current and future OC employees have appropriate operating guidance and
       to better document controls over cash management and other financial
       management activities.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided management with an informal draft of this report in November 2005 and
entered into extensive discussions with the Comptroller on the report findings and
compensating controls to mitigate the impacts of the control weaknesses we identified.
Our findings did not change as a result of these discussions, but we made minor technical
changes and refined several recommendations before issuing the formal draft on January
13, 2006.

On January 27, 2006, management officials provided formal written comments indicating
disagreement with several of our conclusions and the report’s characterization of OC
staffing levels and banking fees. Specifically, management disagreed that individuals
performing bank reconciliations should be restricted from having general ledger access to
those accounts based on current staffing limitations and its confidence in existing
processes. Management also expressed concern that the report did not explain that OC
performed bank reconciliations and cleared reconciling items for the Institution’s CIGNA
account because the Office of Human Resources (OHR) had ceased to perform this
function. Further, management disagreed that the Comptroller’s monitoring of bank
contracts and fees was weak given his professional experience and the extensive analyses
he performed of the fees. Management also believed the report inaccurately described
bank charges for inquiries.

We carefully reviewed management’s concerns with the report and continue to believe
our conclusions and characterizations of the facts are accurate and appropriate. Although
management asserts that our report contains “serious inaccuracies,” we correctly reported
that five employees were assigned to the bank reconciliation function in OC. The sixth
person performing bank reconciliations was a contractor and not an employee. We also
reported that 32 individuals were performing other functions based upon a
                                            10
November 2005 staff roster provided by the CFO. We do not believe there are
inaccuracies or that they are serious.

Further, contrary to management’s assertion, employees performing bank reconciliations
should be restricted from access to the accounts they are reviewing to ensure they do not
force reconciliations into balance with the accounting records. Separation of duties is
needed so that one individual is not in a position to both perpetrate and conceal errors or
fraud in the normal course of his or her duties. This is not to say that the same employees
should not have access to other non-conflicting areas of the general ledger.

Management believes it has deployed compensating controls where resource constraints
have compromised its ability to separate duties. However, we saw limited evidence of
compensating controls, such as reviews of detailed transactions initiated by staff or
reviews of supporting documents for a sample of transactions, which, in our opinion,
would adequately address the lack of segregation of duties. Further, relying solely on
compensating controls is less desirable than establishing separation of duties because
compensating controls ordinarily occur after transactions are complete. It takes more
resources to investigate and correct errors, and recover losses, than it does to prevent
them.

Concern over the report’s failure to mention OHR’s responsibility for reconciling the
CIGNA account was not raised by the Comptroller in prior discussions on earlier drafts.
The fact that OC staff cleared reconciling items for the CIGNA account because OHR
ceased to perform this function also does not negate the need for proper controls over
reconciliations of this account.

Finally, we believe the Comptroller did not adequately review bank fees because he simply
lacked the information to do so. For example, the Comptroller did not have copies of the
bank agreements to show what agreed-upon fees were to be charged the Smithsonian as
well as internal activity reports indicating the types of services rendered and the frequency
of inquiries being made by the units. As a result, the Comptroller did not know how
many times each unit was requesting services or products from the banks to verify that
the charges were valid and reasonable. Further, 63 types of fees charged the Institution
were not tracked nationally, leaving the Comptroller no benchmarks against which to
assess the reasonableness of fees charged the Institution. Many of the bank fee issues were
also noted in the October 2004 Mitchell & Titus report on the Institution’s cash
management practices, which concluded there were opportunities for significant savings
in the bank services area.

Management also disagreed that the large volume of fees for information services were a
reflection of individual unit inquiries. We believe this statement is inconsistent with
actions the OC staff took to reduce unit inquiries. According to the Manager of the
Financial Information Processing Division, in early 2005, OC instructed the units to stop
making inquiries of the banks. In December 2005, the Comptroller told us he was going
to instruct the banks not to accept unit inquiries, and, in January 2006, the Comptroller
provided written acknowledgement to us that he “would support an OIG
recommendation to cease unauthorized unit activity.”
                                             11
Of the 13 report recommendations, management concurred with 10 and partially
concurred with 3. While corrective actions proposed by management were generally
responsive to the recommendations, we believe that additional actions are needed on five
recommendations before we can consider them fully resolved. Management’s response to
our recommendations and our evaluation of their planned actions are discussed below.

Separation of Duties

We made five recommendations to address the lack of separation of duties in OC.
Management concurred with recommendations 1 and 3, and partially concurred with
recommendations 2, 4, and 5. We believe that management’s response in some areas
reflects a misinterpretation of the control weaknesses underlying the recommendations.
In our view, the proposed actions are not fully responsive to any of the five
recommendations.

Recommendation 1. The Comptroller agreed to review the separation of duties among
his employees and ensure compliance with SD 115 by February 13, 2006. However, he
will not restrict general ledger access to accountants involved with the bank reconciliation
process. He stated that accountants have other duties in OC requiring general ledger
access, and a separation of duties is not warranted given that compensating controls are in
place.

We recognize that OC accountants may have other responsibilities requiring general
ledger access. We are recommending only that they not be given ledger access to those
accounts they are responsible for reconciling. Because OC is planning to hire several
more employees in 2006, we believe it could use these resources to reassign duties and
functions to address this control weakness.

Further, although management states there are compensating controls to mitigate the lack
of separation of duties, the Comptroller did not provide details of these controls to the
auditors. We acknowledge that OC now performs monthly bank reconciliations, but
bank reconciliations are merely a detective (after-the-fact) control and do not prevent
theft of the Institution’s assets. Therefore, we are requesting the Comptroller either
describe the compensating controls he has implemented to resolve this issue or explain
how he plans to use new hires in 2006 to provide the proper separation of duties.

Recommendation 2. The Cash Management Officer will approve all wire transfers before
funds are transmitted, but the Comptroller does not agree that transfers in excess of
$1 million should be reviewed by higher-level managers. He believes unit approval of
these transactions is sufficient.

We believe that the Comptroller may have misunderstood our recommendation. We
agree that units budget-checking and approving wire transfers before they are sent to OC
for processing will enhance internal controls. However, because OC employees can both
execute wire transfers and record them in the accounting system without review by a
higher-level supervisor, they can create “fictitious” wire transfers that are not generated by
                                             12
the units. For example, employees can transfer money to their own accounts or to a
fictitious payee and improperly record it as a payment to a valid vendor in the accounting
records.

We do not believe that outgoing wires in amounts over $1 million should be entirely
under the control of one manager in OC. The risk of loss is high because cash is a liquid
asset vulnerable to theft, and cash transfers by wires allow an instantaneous transfer of
funds. While it is possible that this type of fraud may eventually be detected, funds could
be lost and it would be very difficult to recover them once misappropriated.

Our recommendation is consistent with recent guidance on internal controls and a prior
consultant study. According to the October 2005 Treadway Commission exposure draft
on internal controls,10 as dollar thresholds increase, additional approvals from senior
levels of management are required. In addition, PricewaterhouseCoopers, in its 2004
report on the Institution’s internal controls also recommended that specific limits be
established for signing authority on bank transfers.

The Comptroller or his designee should be reviewing wire transfers in excess of
$10 million and the Division Manager or her designee should be reviewing transfers over
$1 million to reduce the risk of fraudulent transactions. We do not believe this is unduly
burdensome because OC staff told us they transmit an average of two wires over
$10 million monthly. Due to the high risk of loss in this area, we do not consider the
corrective action proposed to be fully responsive to the recommendation.

Recommendation 3. The Comptroller agreed to instruct the Institution’s banks to not
accept any wire transfers without authorization from the Cash Management Officer. This
action is not fully responsive to our recommendation because it does not address higher-
level authorizations for bank acceptance of large dollar wire transfers. The Comptroller or
his designee should be authorizing wire transfers in excess of $10 million and the Division
Manager or her designee should be authorizing transfers over $1 million to reduce the
risk of fraudulent transactions.

Recommendation 4. In lieu of implementing the recommendation, the Comptroller
proposes strengthening unit authorizations of wire transfers before they are sent to OC
for processing. The Comptroller does not believe additional monthly reviews of wire
transfers made by OC are necessary because OC only processes wire payments for
properly approved transactions. As discussed in our response to recommendation 2, the
action proposed by the Comptroller will not mitigate the control weakness we reported as
it does not provide a mechanism for detecting whether OC employees have created
fraudulent wire transfers or transferred funds to fictitious vendors. A sampling of
outgoing wires should not be onerous, and we believe the benefit of this control far
outweighs its cost.



10
     Internal Control - Integrated Framework, Guidance for Smaller Public Companies Reporting on Internal
     Controls over Financial Reporting, the Committee of Sponsoring Organizations of the Treadway
     Commission, October 2005.
                                                       13
Recommendation 5. Instead of reviewing journal entries in excess of $100,000 as
recommended, the Comptroller agreed to review a sample of journal entries for proper
documentation and support on a quarterly basis as part of his ongoing compliance efforts.
 He stated there is considerable activity in journal entries at the $100,000 and above level
of materiality, and he does not have adequate staff to review those transactions. He also
indicated that “OC divisional managers are well informed as to non-routine
activities…and are actively engaged in the proper recording of these items.”
We do not share the Comptroller’s confidence in the proper recording of journal entries
because of errors we found during our 2005 audit of bank reconciliations. We reported
that $9.4 million or 76 percent of the reconciling items sampled were caused by errors
made in data entry and that the majority (90 percent) of these errors were made by OC.11
Further, PricewaterhouseCoopers, in its report on internal controls, also recommended
that all journal entries be reviewed and approved by a supervisor in OC’s Financial
Analysis and Reporting Division.

We believe that if journal entries were subject to better review and approval, the
Institution could more readily implement quarterly financial reporting. If the
Comptroller has a reasonable alternative to the $100,000 threshold we proposed, we are
open to his suggestions. However, the response provided does not satisfactorily address
the recommendation.

System Access Levels

Management concurred with recommendations 6, 7, 8, 9, and 10. OC supervisors will be
instructed to review and sign all access forms for OC and the Comptroller will review all
changes to OC employee system access. The Comptroller will also formalize and
document the annual review of the appropriateness of system access levels granted to OC
employees and work with the OCIO to modify access levels, where appropriate. Further,
the CFO will assign responsibility for reviewing separation of duties related to the
PeopleSoft system access levels between the various CFO departments and provide the
financial systems integration manager with adequate information, training and support to
allow him to appropriately evaluate system access requests. We believe these proposed
actions should resolve the issues underlying the recommendations.

Oversight of Bank Fees

Management concurred with recommendations 11, 12, and 13. The Comptroller will
ensure that charges for banking services are valid and reasonable and that future
agreements allow for a monthly analysis of fees. He will also direct the Institution’s
current banking partners to either reject or limit miscellaneous services provided to units
and will establish a written policy to document controls put into place as a result of this
report. We believe these proposed actions are responsive and should address the issues
identified in our report




11
     Audit of Bank Reconciliations, Office of the Inspector General, September 28, 2005.
                                                        14
ACTIONS REQUIRED

Because corrective actions proposed for recommendations 1, 2, 3, 4, and 5 will not fully
resolve the issues identified, we would appreciate receiving your written plans for
resolving these open recommendations within 30 days from the date of this report. You
may provide alternative courses of action that you believe would resolve the issues
presented in this report.

We appreciate the courtesies and cooperation of Smithsonian representatives during this
review. If you have any questions concerning this report, please call me at (202) 275-2154
or Stuart Metzger at (202) 275-2159.




                                           15
APPENDIX A. OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our review were to evaluate internal controls in the Office of the
Comptroller over separation of duties, access to financial records, and oversight of
banking fees. In evaluating controls over cash management and banking activities, we
reviewed duties and system access levels for 15 of 55 employee and contractor positions12
in the accounts payable, cash management, and bank reconciliations groups to determine
how employees reviewed, processed, and recorded banking and other financial
transactions. We did not attempt to detect fraudulent activity by testing individual
transactions where we noted internal control weaknesses. We conducted our review in
Washington, D.C. from October 2005 to December 2005 in accordance with Government
Auditing Standards as prescribed by the Comptroller General of the United States.

Separation of Duties in the Office of the Comptroller

In determining whether employee duties were properly separated in OC, we reviewed two
studies issued in 2004 and 2005 conducted by PricewaterhouseCoopers, LLP. We also
reviewed a 2005 workforce analysis study of financial management resources by Booz
Allen Hamilton.13 We assessed the separation of duties for 15 positions in the Financial
Analysis and Reporting Division and the Financial Information Processing Division to
determine whether employees could both access assets and accounting records. These
positions were responsible for accounts payable, cash management, and bank
reconciliations functions within OC. We reviewed accounts payable positions to
determine how vendor information could be modified and how payment vouchers were
created in the financial system. We reviewed bank reconciliation positions to determine if
employees could reconcile accounts and also post entries to the general ledger, which
would increase the risk of improper recording of accounting entries.

We also reviewed cash management positions and met with staff in OC’s cash
management department and the Office of the Treasurer to discuss procedures for
transferring money electronically between the United States Treasury, the Institution, and
among two of the Institution’s bank accounts. In addition, we observed employees as
they processed on-line electronic funds transfer requests to the United States Treasury
and two banks, noting internal control features and weaknesses.

System Access Levels

To evaluate employee system access capabilities, we obtained a list from OCIO of all OC
personnel having PeopleSoft access privileges, and judgmentally sampled 15 employee
positions from the accounts payable, cash management, and bank reconciliations groups
for analysis of systems access controls. We evaluated whether user access rights were

12
     The 15 positions included two contractors.
13
     Smithsonian Institution Internal Controls Review – Phase II, PricewaterhouseCoopers LLP, December 2004;
     Security Review and Penetration Testing of Financial Systems, PricewaterhouseCoopers LLP, April 2005;
     Assessment of Banking Relationships and Cash Management Practices, Mitchell & Titus, LLP, October 2004;
     and Focused Workforce Analysis, Booz Allen Hamilton, September 2005.
                                                      16
appropriate for the 15 positions, and whether the job duties and access rights were
consistent with good internal control measures. We verified user access levels through
discussions with the OCIO technical staff. We also observed users’ financial system access
levels in PeopleSoft when they logged onto the system and determined what features were
available to them on-line.

Validity of Bank Fees

In assessing the Institution’s oversight of bank fees, we reviewed a 2004 study by Mitchell
and Titus, LLC, met with consultant representatives, and interviewed OC personnel to
discuss OC’s policies and practices with respect to bank fees. We also reviewed bank
agreements and fee schedules that OC was able to provide us; however, we could not
assess the validity of the fees charged the Institution because OC lacked detailed
transaction reports, bank agreements, and prior-period fee schedules.




                                            17
APPENDIX B. MANAGEMENT COMMENTS




                        18
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        19
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        20
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        21
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        22
APPENDIX B. MANAGEMENT COMMENTS (CONTINUED)




                        23
